         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Evaluation Report


       EPA Should Continue to
       Improve Its National
       Emergency Response Planning
       Report No. 08-P-0055

       January 9, 2008
Report Contributors:	                Carolyn Copper
                                     Steve Hanna
                                     Denise Rice
                                     Anne Emory




Abbreviations

DHS           Department of Homeland Security
EPA           U.S. Environmental Protection Agency
INS           Incident of National Significance
LEPC          Local Emergency Planning Committee
NAR           National Approach to Response
OEM           Office of Emergency Management
OIG           Office of Inspector General




Cover photo: Setting up for air sampling at Capitol Hill following the 2001 anthrax attacks
             in Washington, DC (EPA photo).
                         U.S. Environmental Protection Agency                                                08-P-0055 

                                                                                                        January 9, 2008

                         Office of Inspector General


                         At a Glance

                                                                             Catalyst for Improving the Environment

Why We Did This Review                EPA Should Continue to Improve Its
We evaluated the U.S.                 National Emergency Response Planning
Environmental Protection
Agency’s (EPA’s) Emergency             What We Found
Response Business Plan (the Plan)
to determine: (1) how the Agency      We found that EPA’s Emergency Response Business Plan did not disclose the
estimated resource needs for          basis for EPA’s resource estimates. Additionally, EPA management stated
national emergencies; (2) how the     they did not consider State and local resources in their resource estimates
resource estimates considered the     because they believed they would be working with the affected State and local
use of State and local government     governments in a unified command structure. EPA considered past experience
agency resources in national          in estimating the activities they would be asked to perform. Also, EPA did not
emergencies; and (3) how EPA          use existing data on chlorine storage volumes because it was attempting to
used existing data on chlorine        develop a national scenario applicable to any chemical.
volumes to guide plans for
responding to a chemical attack.      The Plan does not satisfy EPA’s need for a framework to respond to incidents
                                      of national significance. While EPA has a proven track record of responding
Background                            effectively to serious environmental situations, those situations are limited in
                                      scope and severity when compared to suggested incidents of national
EPA developed the Plan in 2006        significance. EPA’s initial effort is too limited and unstructured to prepare the
as the framework for emergency        Agency for an effective response. Assumptions are undocumented, resource
response to national-level            requirements unsupported, and internal and external coordination of response
incidents while maintaining an        planning minimal. As a result, the Plan may focus EPA’s preparation for
effective day-to-day emergency        emergency response on the wrong resource allocations, leaving the Agency
response and removal program.         unprepared. EPA intends to address some of these issues as the Plan is
The Plan identifies EPA’s             revised; the plan is evolving as EPA continues to make progress and
resource needs to respond to three    improvements.
distinct national emergency
situations (scenarios). These          What We Recommend
scenarios involve various
combinations of radiological,         We recommend that EPA revise the Plan to incorporate the methodology and
biological, and chemical attacks.     assumptions used to develop all personnel and resource estimates, the rational
                                      for the selection of the incidents of national significance, lessons learned from
                                      past incidents, logistics of resource deployment, and risk communications.
                                      EPA should update key milestones and expand coordination with other EPA
For further information, contact
our Office of Congressional and       offices and relevant Federal agencies in revising the Plan. EPA concurred
Public Liaison at (202) 566-2391.     with our recommendations.

To view the full report, click on
the following link:
www.epa.gov/oig/reports/2008/
20080109-08-P-0055.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL



                                         January 9, 2008

MEMORANDUM

SUBJECT:               EPA Should Continue to Improve Its
                       National Emergency Response Planning
                       Report No. 08-P-0055


FROM:                  Wade T. Najjum
                       Assistant Inspector General
                       Office of Program Evaluation

TO:                    Susan Parker Bodine
                       Assistant Administrator
                       Office of Solid Waste and Emergency Response

                       Tom Dunne

                       Associate Administrator         

                       Office of Homeland Security          



This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. The OIG
responded to the Agency’s draft report comments by making changes to the report and providing
responses to EPA, as appropriate. This report represents the opinion of the OIG and does not
necessarily represent the final EPA position. Final determinations on matters in this report will
be made by EPA managers in accordance with established resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $136,702.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. Your response should include a corrective action plan for agreed
upon actions for Recommendations 2-5 through 2-8, including milestone dates. Please email an
electronic version of your response to Steve Hanna at hanna.steve@epa.gov. Since you
concurred with our recommendations and agreed to implement corrective actions for
Recommendations 2-1 through 2-4, a report of action is not required for those recommendations.
We will close these recommendations in our tracking system when you provide evidence that
they are included in the June 2008 National Approach to Response Implementation Plan.
We will follow up on EPA’s completion of the recommendations. We have no objections to
the further release of this report to the public. This report will be available at
http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Carolyn Copper,
Director for Program Evaluation, Hazardous Waste Issues, at (202) 566-0829 or
copper.carolyn@epa.gov; or Steve Hanna, Project Manager, at (415) 947-4527 or
hanna.steve@epa.gov.
                                    EPA Should Continue to Improve Its 

                                  National Emergency Response Planning 





                                Table of Contents 


Chapters
 1    Introduction ...........................................................................................................      1         


              Purpose ..........................................................................................................    1             

              Background ....................................................................................................       1             

              Noteworthy Achievements..............................................................................                 2             

              Scope and Methodology.................................................................................                3             

              Prior Evaluation Coverage .............................................................................               4             


 2    Planning Processes Could Be Improved ............................................................                             5         


              Plan Assumes No Participation of State and Local Government
                   Emergency Response Resources in National Emergencies ..................                                          5

              Existing Data on Chemical Threats Not Used in Planning .............................                                  6

              Rationale for Planning for Multiple Simultaneous Incidents
                   Not Provided...........................................................................................          7

              Plan Has Inconsistencies ...............................................................................              7             

              Some NAR Milestones Have Not Been Met ...................................................                             8

              Plan Documents Little EPA Internal Federal Coordination.............................                                  8

              Lessons Learned from Past National Emergency Incidents 

                   Not Included in Plan ...............................................................................             9

              Logistics of Resource Deployment Not Accounted for in Plan .......................                                    9

              Plan Does Not Account for Key Issues in EPA’s
                   Risk Communications with the Public.....................................................                         9

              Conclusions ....................................................................................................     10             

              Recommendations .........................................................................................            10             

              Agency Comments and OIG Evaluation.........................................................                          11 


 Status of Recommendations and Potential Monetary Benefits.................................                                        12     




Appendices
 A    Prior Reports .........................................................................................................      14     


 B    Agency Response to Draft Report and OIG Evaluation.....................................                                      15     


 C    Distribution ............................................................................................................    21     

                                   Chapter 1
                                   Introduction
Purpose
          The purpose of this review was to evaluate the U.S. Environmental Protection
          Agency’s (EPA’s) progress in preparing to respond to Incidents of National
          Significance (INSs). EPA’s Office of Emergency Management (OEM), within
          the Office of Solid Waste and Emergency Response, developed the Emergency
          Response Business Plan (the Plan) as the framework for emergency response to
          national-level incidents while maintaining an effective day-to-day emergency
          response and removal program. We addressed the following questions:

              •	 How did EPA calculate the staff and equipment estimates?
              •	 How did EPA incorporate local and State government staff and equipment
                  resources in their need estimates?
              •	 How did EPA incorporate information on existing chlorine tanks into their
                  planning assumptions and need estimates?

Background
          OEM published the Emergency Response Business Plan in June 2006. The Plan
          provides a framework for EPA’s emergency response program to address overall
          readiness for five simultaneous INSs while maintaining an effective day-to-day
          emergency response and removal program. The Department of Homeland
          Security (DHS) defines an INS as                              Table 1.1:
          “an actual or potential high-impact       DHS Incident of National Significance Scenarios
          event that requires robust coordination          Scenario                 Description
                                                   1: Nuclear Detonation 10-Kiloton Improvised
          of the Federal response in order to                               Nuclear Device
          save lives and minimize damage, and      2: Biological Attack     Aerosol Anthrax
          provide the basis for long-term          3: Biological Disease    Pandemic Influenza
                                                      Outbreak
          community and economic recovery.”        4: Biological Attack     Plague
          The plan supports EPA goals to           5: Chemical Attack       Blister Agent
                                                   6: Chemical Attack       Toxic Industrial Chemicals
          implement its own “National              7: Chemical Attack       Nerve Agent
          Approach to Response” (NAR) and          8: Chemical Attack       Chlorine Tank Explosion
                                                   9: Natural Disaster      Major Earthquake
          be responsive to government-wide        10: Natural Disaster      Major Hurricane
          national response objectives as         11: Radiological Attack Radiological Dispersal
          outlined in the National Response                                 Devices
                                                  12: Explosives Attack     Bombing Using Improvised
          Plan and National Incident                                        Explosive Device
          Management System.                      13: Biological Attack     Food Contamination

                                                        14: Biological Attack    Foreign Animal Disease
          The Plan provides resource estimates                                   (Foot and Mouth Disease)
                                                        15: Cyber Attack         Cyber Attack
          (i.e., staff, equipment, and lab              Source: DHS National Planning Scenarios




                                               1

                  capacity) needed to respond to five simultaneous INSs and an analysis of resource
                  gaps. EPA used 3 of the 15 DHS INS scenarios1 for its Plan. Table 1.1 lists the
                  15 DHS scenarios and highlights the 3 included in EPA’s Plan. EPA’s Plan
                  provides estimates for three distinct scenarios. One scenario includes five
                  simultaneous radiological incidents; a second includes five simultaneous
                  biological incidents; and a third includes a combination of one radiological, one
                  biological, and three chemical incidents.

                  OEM management said they intend to revise the Plan, in coordination with current
                  planning efforts of EPA’s Office of Homeland Security. That office’s efforts
                  remain focused on preparing EPA to respond to five simultaneous incidents.

Noteworthy Achievements
                  OEM demonstrated initiative as it developed EPA's first business plan for
                  responding to INSs. It is a noteworthy step in the process to develop the Agency's
                  capabilities to respond to national level incidents while maintaining control over
                  normal operations. The plan provides a good beginning to a deliberate planning
                  process that should continuously improve as EPA broadens participation and
                  coordination. Since the development of the Plan, EPA has made significant
                  progress in addressing the Agency’s NAR priorities. According to OEM
                  management, they:

                       •	   Established a Steering Committee to provide oversight and leadership to
                            the numerous workgroups that support the NAR. The committee has met
                            several times to review and assess NAR priority project workplans.

                       •	   Developed a draft Incident Management Handbook that provides guidance
                            on organizational structure and outlines the communications flow during
                            an INS. This handbook was finalized in November 2007.

                       •	   Developed and delivered a training course for senior managers about
                            emergency response and the use of the Incident Command System to
                            assure that roles and responsibilities are well understood. This course has
                            already been delivered in all of the regions and two Headquarters offices.

                       •	   Developed and implemented an Information Technology Strategy to move
                            data and information seamlessly from field tools to enterprise data storage,
                            where it can be shared with EPA partners through the Emergency
                            Management Portal, and with the general public from EPA's public
                            Website. The strategy will link prevention and preparedness data to actual
                            field response data. This portal, which is central to the strategy's
                            implementation, creates a single point of entry to reach all site-specific
                            data, asset management tools, and emergency management information.
1
 In this document, “incident” refers to the occurrence of a single event, while “scenario” refers to specific single or
multiple incidents used for planning purposes.


                                                           2

                 It is currently under development and is scheduled for completion by the
                 end of 2009.

            •	   Completed the equipment module of the Emergency Management Portal
                 in January 2007. Equipment from each region is being renamed according
                 to the new standard terms. As this is completed for each region, the data
                 are being loaded into the database. Over the next several months, each
                 region is to receive training on the new system, check its data to ensure the
                 accuracy of the data migration, and transition to using the new system.

            •	   Formed an Administrative and Finance Workgroup to address
                 procurement, property tracking, and pay issues. To date, the workgroup
                 has helped to publish the EPA Disaster Response Guidebook for Personal
                 Property Management (during emergency/disaster responses), and a
                 Pocket Guide on Pay and Leave Issues during emergencies and disaster
                 responses.

Scope and Methodology
         We completed our work in accordance with generally accepted government
         auditing standards, except that we did not assess internal controls because they
         were not germane to our review objectives. We assessed the data quality of the
         resource estimates and assumptions used by EPA for the INS scenarios. We did
         not verify the noteworthy achievements, which were supplied by OEM
         management. We performed our review from February to March 2007, at EPA
         Headquarters and EPA Regions 3 and 9.

         To address our first question, we analyzed spreadsheets from EPA that detailed
         the resource requirements for the three INS scenarios. For our second question,
         we reviewed the Plan for evidence of internal and external coordination with other
         Federal agencies, as well as State and local emergency response agencies. For
         our third question, we performed analysis of the potential number of facilities
         with chlorine tanks. We estimated this number by using data from the EPA Toxic
         Release Inventory to identify the number of facilities with high volumes of
         chlorine stored on-site. In answering all of our evaluation questions, we reviewed
         the contents of the Plan and interviewed OEM staff as well as emergency
         response staff in EPA Regions 3 and 9.

         We also reviewed the following criteria documents and information:

            •	   EPA’s National Approach to Response.
            •	   DHS’s National Planning Scenarios.
            •	   EPA’s Homeland Security Strategy (2004).
            •	   EPA’s Future Years Homeland Security Workplan (2007, 2008, 2009).
            •	   EPA lessons learned from the World Trade Center attacks, Space Shuttle
                 Columbia accident, and Hurricane Katrina.


                                           3

             •	   EPA’s Radiological Emergency Response Plan.
             •	   EPA’s Radiological Response Guidelines.
             •	   EPA’s National Incident Management Implementation Plan.
             •	   Office of Solid Waste and Emergency Response National Program
                  Manager Guidance.
             •	   EPA’s emergency response performance goals.
             •	   Homeland Security Presidential Directives 5 and 8.
             •	   National Incident Management System.
             •	   The Emergency Planning and Community Right-to-Know Act Fact Sheet.
             •	   Clean Air Act Section 112(r) - Risk Management Plans.
             •	   National Contingency Plan.
             •	   National Response System.
             •	   National Response Plan and Emergency Support Functions.

Prior Evaluation Coverage
          In 2006, the OIG evaluated a draft version of the Plan. The evaluation ended after
          the preliminary research phase. The Exit Memorandum for Preliminary Research
          of the Effectiveness of EPA’s Emergency Response Activities, Report No. 2006
          M-000004, February 24, 2006, included four observations:

             1.	 The Plan provided no rationale for INS scenario selection.
             2.	 Strategic Goals 1 and 2 conflict and may not reflect the most effective or
                 efficient strategy.
             3.	 NAR work plans do not specifically address activities EPA would take
                 on-scene during an emergency response.
             4.	 The Plan’s strategy for monitoring performance does not rely on outcome-
                 based measurements.

          In the current review, we found that the Agency has not yet taken action to
          address our prior observation 1; it has addressed observation 3; and it is working
          to address observation 4. We did not follow up in the current review on EPA’s
          actions to address observation 2.

          In addition, we reviewed three prior OIG reports and four Government
          Accountability Office reports. A listing of those reports is in Appendix A.




                                           4

                                Chapter 2
        Planning Processes Could Be Improved
          The Emergency Response Business Plan (the Plan) does not satisfy EPA’s need
          for a framework to respond to INSs. While EPA has a proven track record of
          responding effectively to serious environmental situations, those situations were
          limited in scope and severity when compared to suggested INSs. The existing
          planning process represents an effort by EPA to address multiple INSs.
          However, this initial effort is too limited and unstructured to prepare the Agency
          for an effective response. Assumptions are undocumented, requirements
          unsupported, and internal and external coordination of response planning minimal
          or undocumented. As a result, the process may focus EPA’s preparation for
          emergency response on the wrong resource allocations, leaving the Agency
          unprepared. EPA intends to address some of these issues as the Plan is revised.

Plan Assumes No Participation of State and Local Government
Emergency Response Resources in National Emergencies
          The Plan does not incorporate or reflect the significant resources that State and
          local emergency response organizations contribute to emergency events. OEM
          management stated they relied on “best professional judgment” for their resource
          estimates. Also, EPA lacks the data needed to know who may be locally available
          and ready to assist. Consequently, EPA’s planned needs and resource
          requirements may be unreliable.

          In accordance with the Emergency Planning and Community Right to Know Act
          of 1986, States and local government agencies have organizations in place to
          address emergency response. Under this Act, the governor of each State has
          designated a State Emergency Response Commission responsible for its
          implementation. These commissions have designated approximately 3,500 Local
          Emergency Planning Committees (LEPCs). LEPCs maintain an emergency plan
          for their jurisdictions. These plans reflect and incorporate information that
          LEPCs get from businesses in their jurisdictions, such as the amount and location
          of chemicals at a business. The first responders in an emergency, such as fire
          departments or emergency management organizations, are members of the
          LEPCs. State and Federal resources typically respond only when the magnitude
          of an emergency overwhelms local resources.

          OEM management told us they intend to revisit the Plan’s resource estimates. In
          addition, they continue to expand their Response Support Corps, which consists
          of EPA staff who volunteer for deployment in an emergency and receive a
          required amount of training. We believe that EPA should identify LEPC and
          State resources for assistance in an emergency. These first responders, from


                                           5

          agencies other than those in the impacted areas, could represent a significant
          trained resource to aid in emergency response. EPA’s consideration of these
          existing resources would better define the capabilities EPA will need to provide,
          resulting in a capability-based resource effort and improved resource
          management. EPA management stated they did not consider State and local
          resources in their resource estimates because they believed they would be
          working with the affected State and local governments in a unified command
          structure. EPA management considered past experience in estimating the
          activities they would be asked to perform. However, the 2006 Plan does not
          clearly state this assumption, and the next iteration should do so. Further, EPA
          should consider incorporating existing State and local resources into their future
          regional planning efforts.

Existing Data on Chemical Threats Not Used in Planning
          EPA’s planning scenario for chlorine (i.e., chemical tank explosion) is a general
          theoretical scenario and not based on a past incident or derived from information
          on chlorine tank locations and volumes. The DHS planning scenario for a
          chlorine tank explosion is also not based on actual tank locations and volumes.
          However, data are available on the locations of facilities with large chlorine
          volumes, from sources such as the Toxic Release Inventory, Risk Management
          Plans, and LEPCs. For example, 2004 Toxic Release Inventory data show that
          265 facilities report a maximum on-site chlorine volume greater than 100,000
          pounds. Of those 265 facilities, 15 reported on-site chlorine volumes greater than
          10,000,000 pounds. This type of information could assist EPA with developing
          realistic planning scenarios for chlorine-related emergency events.

          OEM management said that they did not focus on existing chlorine stores because
          they were only using chlorine as an example of a chemical incident. OEM
          management also said they did not consider existing chlorine tanks because they
          were developing a national scenario that would be applicable to a general
          chemical event rather than just chlorine. EPA comments also stated that they
          might not include a chlorine scenario in their next plan. This is because they
          believe it would not strain resources, EPA has experience with chlorine events,
          and the duration of the response would not be lengthy. We believe EPA should
          incorporate its knowledge of major repositories of existing chemicals, to include
          chlorine when appropriate, in its future regional planning efforts for chemical-
          specific events. This especially applies to those repositories in proximity to
          populated areas. This could include a review of the Risk Management Plan
          submittals from high-volume facilities. EPA has stated that regional offices
          currently work with Risk Management Plan implementing agencies on facility
          planning to prevent and respond to chemical releases.




                                           6

Rationale for Planning for Multiple Simultaneous Incidents
Not Provided
          The Plan does not state the rationale for the goal of being ready for five
          simultaneous incidents (as opposed to more or fewer incidents), nor why these
          particular scenarios were chosen. The scenarios selected were radiological
          (a dirty bomb), biological (anthrax), and a chemical explosion (chlorine tank).
          These represent 3 of the 15 DHS INS scenarios. EPA would also likely have a
          role in other DHS scenarios, including a blister agent, toxic industrial chemicals,
          a nerve agent, and a major earthquake or hurricane.

          OEM management told us that senior Office of Solid Waste and Emergency
          Response officials defined the scenario of five simultaneous incidents as a
          planning assumption. EPA staff indicated they selected the three specific
          scenarios because they would involve a high degree of EPA involvement. EPA
          selected the chlorine scenario because of EPA’s experience with chemical cleanup
          as a core program activity. Staff selected a radiological scenario because they
          thought they had little experience in this area and thus needed additional planning.
          According to EPA staff, EPA selected the anthrax scenario because it seemed
          especially relevant due to the 2001 anthrax attacks on Capitol Hill in Washington.

          EPA believes that planning for multiple incidents rather than a single event is
          more realistic, because past terrorist attacks have often involved multiple targets.
          However, planning for multiple incidents significantly expands the scope of the
          planning and resource requirements. The basic assumptions and rationales should
          be identified so that leadership can make informed resource decisions.

Plan Has Inconsistencies
          EPA’s Plan scenarios are inconsistent with DHS scenarios or other parts of the
          Plan:

             •	 The DHS chlorine tank scenario assumes the detonation of a 60,000
                gallon chlorine tank (approximately 480,000 pounds), situated in an urban
                center with other industrial and residential land use nearby. EPA’s
                chlorine scenario identifies a 60-ton chlorine cylinder (approximately
                120,000 pounds), a quarter of the size of the DHS tank.
             •	 The Plan’s radiological scenario assumes five simultaneous radiological
                attacks, in five different EPA regions, using dirty bomb dispersal devices.
                However, the DHS radiological scenario involves three simultaneous dirty
                bombs in cities close to one another. EPA’s scenario assumes more
                incidents involving a larger geographic area.
             •	 The Plan’s biological scenario has an internal inconsistency. The Plan
                states the anthrax assessment phase would take approximately 6 months
                while the cleanup phase would take upwards of 8 months, for a total
                response action lasting 14 months. However, the Plan’s general planning


                                            7

                 assumptions indicate that, for all scenarios, EPA activity will continue for
                 26 weeks (approximately 6 months).

          EPA’s Plan does not acknowledge or explain these apparent differences, which
          has an impact on the scale of the planned response and the resources required.
          EPA told us that DHS had not completed its scenario descriptions at the time EPA
          was developing the Plan, which may explain differences between the EPA and
          DHS assumptions.

Some NAR Milestones Have Not Been Met
          EPA has not met some of the NAR work plan dates, and many of the work plans
          do not identify a lead person. EPA has identified the NAR as its mechanism for
          managing emergency response assets in a coordinated manner during an INS.
          EPA has recognized that certain activities, such as putting contracts in place, must
          be completed in order to respond effectively during an INS. These activities are
          detailed in a list of NAR work plans. The Plan includes 93 NAR work plans, and
          EPA has identified 14 as priority work plans that have estimated completion
          dates. EPA has emphasized the importance of the NAR. The Assistant
          Administrator for Solid Waste and Emergency Response testified at a Senate
          hearing to the fact that the NAR provides EPA with the ability to respond
          whenever and wherever needed. OEM management has indicated they are
          working on updating these plans, and that additional work plans will address
          administration, logistics, and property management.

Plan Documents Little EPA Internal Federal Coordination
          OEM management indicated that, with the exception of the Office of Air and
          Radiation and the Office of Acquisition Management, they did not coordinate the
          Plan with other EPA program offices. OEM also did not document any
          coordination or consultation with other Federal agencies to determine their
          possible roles and/or availability of resources from other Federal agencies.
          However, OEM consulted with emergency response staff in the EPA regions on
          the Plan and incorporated their input. Examples of expertise and possible
          resources available in other EPA offices or Federal agencies include:

             •	 The EPA Office of Drinking Water and Ground Water has experience
                with planning for bioterrorism.
             •	 The Centers for Disease Control and Prevention have experience with
                biological disasters. DHS’s anthrax planning scenario clearly states that
                the Centers for Disease Control and Prevention and EPA would be
                working and making decisions together during such a scenario.
             •	 The Department of Energy has experience dealing with radiological
                disasters and is usually the first responder for a radiological incident.




                                           8

          OEM management indicated that they did not coordinate with other agencies
          because they wanted to test and verify the Plan internally before discussing with
          other agencies, and that they developed the Plan to show how OSWER activities
          had changed. Without coordination with other agencies, EPA risks duplication or
          conflict in its emergency response. OEM managers have indicated they are
          coordinating with other Agency offices as they move forward with the new NAR
          implementation plan, and they coordinate their planning efforts with other Federal
          agencies through existing planning frameworks.

Lessons Learned from Past National Emergency Incidents
Not Included in Plan
          The Plan acknowledges the importance of lessons learned from national
          emergency events, yet these lessons were either not incorporated or explicitly
          identified in the Plan. In the past several years, the United States has experienced
          several national emergency events, such as the World Trade Center attacks,
          Capitol Hill anthrax incident, Space Shuttle Columbia accident, and Hurricane
          Katrina. Lessons learned from these incidents can provide useful information in
          planning for future incidents by identifying which activities work and which need
          to be improved. OEM management stated they are adding work plans to address
          specific issues that came up during Hurricane Katrina, such as administration,
          logistics, and property management. According to EPA, lessons learned from
          past national incidents were incorporated into their NAR priorities, to include
          “Administrative Issues” and “Crisis Communications.” OEM management has
          also indicated that lessons learned will be identified and included in the next
          version of the Plan, which OEM expects to finalize no earlier than March 2008.

Logistics of Resource Deployment Not Accounted for in Plan
          The Plan does not specifically identify logistics as an issue or identify
          mechanisms to ensure logistics requirements do not limit EPA’s response actions.
          Emergency planning requires planning for the transportation, housing, and other
          support (e.g., food) of the personnel involved. Transportation, housing, and
          feeding responders were significant activities in EPA’s response to Hurricane
          Katrina. Without addressing logistics in the Plan, EPA may encounter difficulties
          in implementing its response plans due to problems that can arise in transporting,
          housing, and supporting responders. OEM management indicated that logistics
          issues were not included in the plan because their importance was not recognized
          until Hurricane Katrina, which occurred after the initial draft of the Plan. OEM
          plans to address logistics in the next version of the Plan.

Plan Does Not Account for Key Issues in EPA’s Risk Communications
with the Public
          The NAR communication work plans identified in the Plan do not explicitly
          address EPA’s role or responsibilities in deciding and communicating what risks


                                            9

         the public faces when returning to or staying in an affected area. Both the World
         Trade Center attacks and Hurricane Katrina demonstrated the public’s expectation
         that EPA has a lead role in clearly communicating risks to the public regarding
         the safety of contaminated disaster areas. This includes communicating what the
         risks are to residents who return to contaminated disaster areas. EPA’s Plan
         includes two NAR communication work plans, to:

              1.	 Develop specialized communication tools to support outreach and risk
                  communication.
              2.	 Develop training to support outreach and risk communication.

         This has proven to be a critical activity for EPA to manage and respond to in
         recent national emergencies. EPA officials told us they are currently participating
         with the White House Office of Science and Technology Policy to develop a
         methodology for deciding how to determine when it is safe to return. While this
         is an important step, it is also necessary for EPA to identify methodologies it will
         use to determine and communicate risk. Also, EPA needs to know in each
         scenario what its role will be in advising decision authorities and the public,
         especially displaced residents and businesses, on the risks of returning to
         impacted areas.

Conclusions
         The current Plan does not satisfy EPA’s need for a framework to respond to INSs.
         The existing planning process is too limited and unstructured to prepare the
         Agency for an effective response. Assumptions are undocumented, requirements
         unsupported, and internal and external coordination of response planning
         minimal. As a result, the process may focus EPA’s preparation for emergency
         response on the wrong resource allocations, leaving the Agency unprepared.

Recommendations

         We recommend the Director of EPA’s Office of Emergency Management, in
         cooperation with the Associate Administrator for EPA Homeland Security,
         incorporate revisions to the Plan or any follow-on planning documents (such as
         implementation plans) that:

         2-1	 Include the methodology and assumptions used to develop all personnel and
              resource estimates, including the potential availability of other Federal,
              State, or local resources.

         2-2	 Include information from existing chemical inventory data and risk
              management plans when planning for chemical incidents, such as chlorine
              tank explosions when appropriate, at the regional level. This could include
              a review of the Risk Management Plan submittals from high-volume
              facilities. EPA has stated that regional offices currently work with Risk


                                          10 

              Management Plan implementing agencies on facility planning to prevent
              and respond to chemical releases.

         2-3	 Document the rationale for the selection of the INS scenarios addressed,
              including:

                  a.	 EPA’s anticipated role in each of the INS scenarios.
                  b.	 The need to plan for five simultaneous incidents.
                  c.	 The reasons for differences between EPA’s and DHS’s chlorine and
                      radiological scenarios, where they remain.

         2-4	 Update NAR milestones and progress indicators for milestone completion.

         2-5	 Expand internal EPA coordination and coordination with other relevant
              Federal, State, and local emergency response agencies.

         2-6	 Incorporate lessons learned from past incidents, such as the World Trade
              Center attacks, Capitol Hill anthrax incident, and Hurricane Katrina.

         2-7	 Incorporate logistics of resource deployment, such as transportation,
              housing, and feeding of EPA responders.

         2-8	 Define communication activities that inform the public of risks in
              contaminated disaster areas, including:

                  a.	 Methodologies used to determine and communicate risk to residents
                      returning to contaminated disaster areas.
                  b.	 The role of local, State, or Federal agencies in risk communications.
                  c.	 How decisions about risk will be made under specific scenarios.
                  d.	 How risk decisions will be communicated under specific scenarios.

Agency Comments and OIG Evaluation

         The OIG made changes to the report based on the Agency’s comments where
         appropriate. Appendix B provides the full text of the Agency comments and OIG
         response.

         EPA concurred with all recommendations. EPA initially did not concur with
         Recommendation 2-2, which recommended including existing chemical inventory
         data in planning efforts. We changed this recommendation to address Agency
         concerns, and EPA agreed with the revised recommendation.

         EPA said it will incorporate Recommendations 2-1 through 2-7 into the NAR
         Implementation Plan, which is scheduled for completion by June 2008.
         Recommendation 2-8 is to be addressed by the Crisis Communications Resource
         Guide, which is scheduled for completion in December 2008.


                                         11 

                            Status of Recommendations and
                              Potential Monetary Benefits

                                                                                                                            POTENTIAL MONETARY
                                               RECOMMENDATIONS                                                               BENEFITS (in $000s)

                                                                                                                Planned
Rec.   Page                                                                                                    Completion   Claimed    Agreed To
No.     No.                          Subject                           Status1        Action Official             Date      Amount      Amount

2-1     10    Include the methodology and assumptions used to            O        Director, EPA’s Office of    June 2008
              develop all personnel and resource estimates,                      Emergency Management,
              including the potential availability of other Federal,               in cooperation with the
              State, or local resources.                                         Associate Administrator for
                                                                                  EPA Homeland Security

2-2     10    Include information from existing chemical                 O        Director, EPA’s Office of    June 2008
              inventory data and risk management plans when                      Emergency Management,
              planning for chemical incidents, such as chlorine                    in cooperation with the
              tank explosions when appropriate, at the regional                  Associate Administrator for
              level. This could include a review of the Risk                      EPA Homeland Security
              Management Plan submittals from high-volume
              facilities. EPA has stated that regional offices
              currently work with Risk Management Plan
              implementing agencies on facility planning to
              prevent and respond to chemical releases.

2-3     11    Document the rationale for the selection of the INS        O        Director, EPA’s Office of    June 2008
              scenarios addressed, including (a) EPA’s                           Emergency Management,
              anticipated role in each of the INS scenarios;                       in cooperation with the
              (b) the need to plan for five simultaneous incidents;              Associate Administrator for
              and (c) the reasons for differences between EPA’s                   EPA Homeland Security
              and DHS’s chlorine and radiological scenarios,
              where they remain.

2-4     11    Update NAR milestones and progress indicators for          O        Director, EPA’s Office of    June 2008
              milestone completion.                                              Emergency Management,
                                                                                   in cooperation with the
                                                                                 Associate Administrator for
                                                                                  EPA Homeland Security

2-5     11    Expand internal EPA coordination and coordination          O        Director, EPA’s Office of    June 2008
              with other relevant Federal, State, and local                      Emergency Management,
              emergency response agencies.                                         in cooperation with the
                                                                                 Associate Administrator for
                                                                                  EPA Homeland Security

2-6     11    Incorporate lessons learned from past incidents,           O        Director, EPA’s Office of    June 2008
              such as the World Trade Center attacks, Capitol                    Emergency Management,
              Hill anthrax incident, and Hurricane Katrina.                        in cooperation with the
                                                                                 Associate Administrator for
                                                                                  EPA Homeland Security

2-7     11    Incorporate logistics of resource deployment, such         O        Director, EPA’s Office of    June 2008
              as transportation, housing, and feeding of EPA                     Emergency Management,
              responders.                                                          in cooperation with the
                                                                                 Associate Administrator for
                                                                                  EPA Homeland Security




                                                                             12 

                                                                                                                               POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                              BENEFITS (in $000s)

                                                                                                                   Planned
    Rec.    Page                                                                                                  Completion   Claimed    Agreed To
    No.      No.                         Subject                          Status1        Action Official             Date      Amount      Amount

    2-8       11    Define communication activities that inform the         O        Director, EPA’s Office of    December
                    public of risks in contaminated disaster areas,                 Emergency Management,           2008
                    including (a) methodologies used to determine                     in cooperation with the
                    and communicate risk to residents returning to                  Associate Administrator for
                    contaminated disaster areas; (b) the role of local,              EPA Homeland Security
                    State, or Federal agencies in risk communications;
                    (c) how decisions about risk will be made under
                    specific scenarios; and (d) how risk decisions will
                    be communicated under specific scenarios.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                13 

                                                                                    Appendix A

                                        Prior Reports

                                           EPA OIG Reports
Title                                                        Report No.      Date
EPA’s Homeland Security Role to Protect Air from             2004-M-000005   February 20, 2004
Terrorist Threats Needs to be Better Defined
EPA Needs to Better Manage Counter                           2004-P-00011    March 29, 2004
Terrorism/Emergency Response Equipment
Lessons Learned: EPA’s Response to Hurricane Katrina         2006-P-00033    September 14, 2006



                              Government Accountability Office Reports
Title                                                        Report No.      Date
Anthrax Detection – Agencies Need to Validate Sampling       GAO-05-251      March 2005
Activities in Order to Increase Confidence in Negative
Results
Critical Infrastructure Protection – Progress Coordinating   GAO-07-39       October 2006
Government and Private Sector Efforts Varies by Sectors’
Characteristics
Homeland Security – Preparing for and Responding to          GAO-07-395T     March 2007
Disasters
Anthrax Detection – DHS Cannot Ensure That Sampling          GAO-07-687T     March 2007
Activities Will Be Validated




                                                   14 

                                                                                     Appendix B

                   Agency Response to Draft Report
                         and OIG Evaluation
December 5, 2007

MEMORANDUM


SUBJECT:	      Response to OIG Draft Evaluation Report: “EPA Should Continue to
               Improve Its National Emergency Response Planning” Assignment No.
               2007-00573

FROM: 	        Susan Parker Bodine/s/
               Assistant Administrator
               Office of Solid Waste and Emergency Response

               Thomas P. Dunne/s/ 

               Associate Administrator       

               Office of Homeland Security 


TO: 	          Bill A. Roderick
               Acting Inspector General


       Thank you for the opportunity to comment on this draft report. We also appreciate the
meetings we have had with your staff to discuss our planning efforts. We are providing a
response to your draft recommendations followed by some specific comments on the draft report.

Response to Recommendations

2-1. Include the methodology and assumptions used to develop all personnel and resource
estimates, including the potential availability of other Federal, State, or local resources.

Response: We agree with this recommendation. We are currently revising the estimates
regarding the resources that are required for EPA to respond to five Incidents of National
Significance (INS). This will be part of an agency-wide National Approach to Response (NAR)
Implementation Plan. This plan will document planning assumptions and to the extent possible,
we will address how we considered the availability of other Federal, State, or local resources.
We expect that this NAR Implementation Plan will be completed by June 2008.

2-2. Include information from existing chemical inventory data and risk management plans when
planning for chemical incidents, such as chlorine tank explosions, at the regional level.




                                                 15 

Response: We do not agree with this recommendation. In fact, we are currently considering not
including the chlorine scenario in the new NAR Implementation Plan. EPA has responded to
numerous chemical incidents in recent years. Even though a release of a substantial amount of
chlorine would be considered a major incident, we believe that it would not strain Agency
resources because we have experience with this type of response and the duration of the response
would not be lengthy.

EPA regional offices work with Risk Management Program State implementing agencies
regarding facility planning to prevent and respond to releases of chlorine and certain other
chemicals. Further, DHS works with these facilities regarding site security issues.

OIG Response

Based on EPA’s response, we changed Recommendation 2-2 and statements in the report as indicated
in the following paragraphs. EPA concurred with the amended recommendation.

We changed Recommendation 2-2 on page 10 of our report to read as follows: “Include information from
existing chemical inventory data and risk management plans when planning for chemical-specific
incidents, such as chlorine tank explosions, at the regional level. This could include a review of the Risk
Management Plan submittals from high-volume facilities. EPA has stated that regional offices currently
work with Risk Management Plan implementing agencies on facility planning to prevent and respond to
chemical releases.”

We also changed on page 6 of our report to read as follows: “EPA comments also stated that they might
not include a chlorine scenario in their next plan. This is because they believe it would not strain
resources, EPA has experience with chlorine events, and the duration of the response would not be
lengthy. We believe EPA should incorporate its knowledge of major repositories of existing chemicals, to
include chlorine when appropriate, in its future regional planning efforts for chemical-specific events. This
especially applies to those repositories in proximity to populated areas. This could include a review of the
Risk Management Plan submittals from high-volume facilities. EPA has stated that regional offices
currently work with Risk Management Plan implementing agencies on facility planning to prevent and
respond to chemical releases.”


2-3. Document the rationale for the selection of the INS scenarios addressed, including:
       a. EPA’s anticipated role in each of the INS scenarios.
       b. The need to plan for five simultaneous incidents.
       c. The reasons for differences between EPA’s and DHS’s chlorine and radiological
       scenarios, where they remain.

Response: We agree with this recommendation and will provide the appropriate documentation
in the NAR Implementation Plan that is described in response to Recommendation 2-1 above.

2-4. Update NAR milestones and progress indicators for milestone completion.

Response: We agree with this recommendation and will include the NAR milestones and
progress for milestones completion in the NAR Implementation Plan that is described in
response to Recommendation 2-1 above. There are currently 14 NAR priorities for which work
is underway.



                                                     16 

2-5. Expand internal EPA coordination and coordination with other relevant Federal, State, and
local emergency response agencies.

Response: As mentioned in response to Recommendation 2-1, the new NAR Implementation
Plan will be agency-wide. To gather more input from across the program offices in EPA, we
asked National Incident Coordination Team (NICT) members to provide representatives to work
with OSWER on the revision to what is needed for five INS. Additionally the NICT will have
an opportunity to review and provide comments on the draft plan.

EPA is a member of the DHS Incident Management Planning Team and will use that opportunity
to coordinate certain aspects of this plan. Additionally, EPA coordinates planning efforts with
other federal agencies through work on emergency support functions.

While EPA coordinates routinely with State and local emergency response agencies, and we will
continue to do so, we do not foresee including State and local capability in this plan. The issue
here is that state and local capability varies widely across the country. In preparing national
planning estimates, it is very difficult to generalize how States and locals will participate and to
what degree. However, our Regional offices will continue to coordinate with the States and
locals at their level and as they do more specific planning for their geographical areas. We did
consider generally what we would do recognizing that we would be working with affected state
and local governments in a unified command structure.

2-6. Incorporate lessons learned from past incidents, such as the World Trade Center attacks,
Capitol Hill anthrax incident, and Hurricane Katrina.

Response: As we have mentioned in discussions with OIG representatives, lessons learned from
all of these past incidents are already incorporated in the NAR priorities. For example, as a result
of Hurricane Katrina, two new NAR priorities were identified: Administrative Issues and Crisis
Communication. We are currently using experience from Hurricane Katrina in the revision of
estimated resources required for five INS.

OIG Response

We added the following sentence to page 9 of our report: “According to EPA, lessons learned from past
national incidents were incorporated into their NAR priorities, to include ‘Administrative Issues’ and ‘Crisis
Communications.’”


2-7. Incorporate logistics of resource deployment, such as transportation, housing, and feeding of
EPA responders.

Response: Lessons learned on the above mentioned logistic issues were added to the NAR
Administrative priority and also the Contracts priority work. In this way, they will be included
in the NAR Implementation Plan described in response to recommendation 2-1 above. However,
the specific details for these issues will need to be described as part of the actual incident action
plan as they will be dependent on a number of factors that can only be known when the incident
occurs.


                                                      17 

2-8. Define communication activities that inform the public of risks in contaminated disaster
areas, including:
        a. Methodologies used to determine and communicate risks to residents returning to
        contaminated disaster areas.
        b. The role of local, State, or Federal agencies in risk communications.
        c. How decisions about risk will be made under specific scenarios.
        d. How risk decisions will be communicated under specific scenarios.

Response: These activities will be addressed in the NAR Crisis Communications priority. A
Crisis Communications Resource Guide with information about the above activities will be
prepared by the Crisis Communications Workgroup which is chaired by the Office or Public
Affairs, OEM and Region 1. This Resource Guide is scheduled for completion in December
2008.

Specific Comments on the Draft Evaluation Report

At a Glance, first paragraph and Page 6, first paragraph. We disagree with the statement that
EPA did not consider State and local resources because we assumed that they would be
overwhelmed or unavailable. EPA routinely works with State and local governments on
responses to incidents of all sizes. While we realize that the capabilities vary, we did consider
generally what we would do recognizing that we would be working with the affected State and
local governments in a unified command structure. We considered past experience in estimating
the activities that we would be asked to perform.

OIG Response

We changed text in the At A Glance and page 6 of our report to read as follows: “EPA management
stated they did not consider State and local resources in their resource estimates because they believed
they would be working with the affected State and local governments in a unified command structure.
EPA considered past experience in estimating the activities they would be asked to perform.”


Page 2, second bullet under Noteworthy Achievements. The Incident Management Handbook
was finalized in November.

OIG Response

We added the following statement to page 2 of our report: “This handbook was finalized in November
2007.”


Page 5, first paragraph. – We disagree with the conclusion that EPA is unprepared. As we
discussed during our meetings with OIG representatives, the Emergency Response Business Plan
was intended to show how the emergency response and preparedness activities changed since the
events of September 11. Estimating resources for 5 INS was a planning exercise in an effort to
begin to identify the personnel, equipment and contractor resources that may be required for
multiple incidents. We realized at the time that we cannot predict what scenarios will occur.


                                                   18
EPA does extensive planning and coordination with State and local officials at the regional level.
In both Headquarters and the regions, EPA staff work under the National Response Plan
emergency support function framework to coordinate planning efforts. Additionally, EPA
coordinates these efforts through the National Response Team and Regional Response Teams
that were created under the National Contingency Plan.

OIG Response

The report states that EPA may be unprepared if the issues we have identified are not addressed. As
documented in its response to the draft report, EPA intends to address or has addressed most of the
issues we have identified. In subsequent discussions, EPA indicated that, in context, it does not disagree
with the report conclusions. No change made in the final report.


Page 5, third paragraph. Local Emergency Planning Committees (LEPCs) are planning entities.
They are not the first responders in an emergency. We suggest that you replace LEPCs with
local responders. Also, although EPA works with States, LEPCs, and other local officials on a
routine basis and therefore has some information on local capabilities, EPA regions do not
conduct surveys to quantify the local resources available. The NAR implementation planning
effort will not enumerate the capabilities of each local emergency planning district. Such efforts
would not only vary given specific scenarios, but they would need to be updated regularly. We
suggest that the last sentence in this paragraph be deleted to avoid confusion.

OIG Response

We changed text on page 5 of our report to read as follows: “The first responders in an emergency, such
as fire departments or emergency management organizations, are members of the LEPCs.” The last
sentence in the paragraph was deleted.


We will however continue to work through the regions to better document our interaction with
State and local responders and assess their capabilities. We understand that some States and
localities have mutual aid agreements in place. We will continue to explore whether that mutual
aid should be expanded nationally.

Page 8, last two paragraphs. Regarding internal federal coordination, as we discussed in
meetings with OIG representatives, the Emergency Response Business Plan was originally
developed to show how the OSWER activities had changed. As we move forward with the new
NAR implementation plan we are working through the NICT to involve other Agency offices.
Also, as we have indicated earlier, we coordinate our planning efforts with other federal agencies
through the NRP and NRT frameworks.




                                                   19 

OIG Response

We changed the section heading on page 8 of our report to read as follows: “Plan Documents Little EPA
Internal Federal Coordination.” We changed text on page 8 of our report to read as follows: “OEM also
did not document any coordination or consultation with other Federal agencies to determine their possible
roles and/or availability of resources from other Federal agencies.” We changed text on page 9 of our
report to read as follows: “OEM management indicated that they did not coordinate with other agencies
because they wanted to test and verify the Plan internally before discussing with other agencies, and that
they developed the Plan to show how OSWER activities had changed. Without coordination with other
agencies, EPA risks duplication or conflict in its emergency response. OEM managers have indicated
they are coordinating with other Agency offices as they move forward with the new NAR implementation
plan, and they coordinate their planning efforts with other Federal agencies through existing planning
frameworks.”


        Thank you again for the opportunity to comment on the draft report. Please do not
hesitate to contact us if you have questions or would like to discuss our comments.




                                                   20 

                                                                            Appendix C

                                   Distribution

Office of the Administrator
Assistant Administrator, Office of Solid Waste and Emergency Response
Associate Administrator, Office of Homeland Security
Principal Deputy Assistant Administrator, Office of Solid Waste and Emergency Response
Associate Assistant Administrator, Office of Solid Waste and Emergency Response
Director, Office of Emergency Management, Office of Solid Waste and Emergency Response
Agency Followup Official (the CFO)
Office of General Counsel
Agency Followup Coordinator
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Followup Coordinator, Office of Solid Waste and Emergency Response
Deputy Inspector General




                                           21 

